     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




      Afghanistan Energy Supply Has Increased but An
      Updated Master Plan Is Needed and Delays and
              Sustainability Concerns Remain




                                 January 15, 2010



SIGAR AUDIT-10-4 Energy Sector
         OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


January 15, 2010

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

William Frej
USAID Mission Director to Afghanistan

This report presents the results of our review of U.S. efforts to develop Afghanistan’s energy sector.
Years of war and neglect have left Afghanistan’s electrical sector in poor condition. Since 2002, U.S. and
international donors have invested millions in the construction of energy infrastructure and building
capacity to grow and sustain Afghanistan’s energy sector. This report reviews the overall energy sector
plans and U.S. agency programs in Afghanistan, focusing primarily on the energy assistance program of
the largest U.S. contributor to this effort, the U.S. Agency for International Development. The report
includes four recommendations for the Director of the U.S. Agency for International Development
Mission to Afghanistan to improve the effectiveness of and planning for energy projects in Afghanistan.

A summary of our report is on page ii. The audit was conducted by the Office of the Special Inspector
General for Afghanistan Reconstruction (SIGAR) under the authority of Public Law 110-181 and the
Inspector General Act of 1978, as amended. When preparing the final report, we considered joint
comments received from the U.S. Embassy Kabul and the U.S. Agency for International Development
Mission in Afghanistan. Copies of the written comments are included in appendix II of this report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction




SIGAR Audit-10-4 Energy Sector                                                                      Page i
                                                                     SIGAR Audits-10-4                      January 2010


                     SIGAR
                                                Special inspector General for Afghanistan Reconstruction
                                                                     Afghanistan Energy Supply Has Increased
                                                                     but An Updated Master Plan Is Needed
                .
                                                                     and Delays and Sustainability Concerns
    Special Inspector General for Afghanistan Reconstruction         Remain
 What SIGAR Reviewed
 Since 2002, the United States has obligated over $732 million towards rebuilding Afghanistan’s energy sector. This
 report assesses the (1) strategy for prioritizing projects and establishing goals and timeframes, (2) status of
 Afghanistan’s energy sector and U.S. and donor efforts, (3) status of USAID energy sector projects, and (4)
 coordination of projects between the United States, international donors, and Afghanistan. We conducted this
 performance audit in Kabul, Afghanistan and Washington D.C., from April to December 2009 in accordance with
 generally accepted government auditing standards.

 What SIGAR Found
 Afghanistan lacks a current Energy Sector Master Plan that establishes priorities, timeframes, and costs associated with
 energy sector goals. Ambitious goals that guide Afghanistan’s energy sector priorities are unlikely to be met in the
 established timeframes.

 Assistance from the United States and other donors’ has increased power generation and accessibility in Afghanistan
 since 2001. Afghanistan’s installed energy capacity has grown from approximately 430 megawatts (MW) in 2001 to
 1029 MW in September 2009. However, Afghanistan faces several sustainability challenges in maintaining and growing
 its energy supply. Specifically, the Afghanistan government lacks the ability to collect revenue, which limits their ability
 to independently operate and expand the power system, and the ability to recruit and retain qualified staff.

 The United States has taken steps to address many of Afghanistan’s energy generation and capacity issues, but projects
 have faced delays and increased costs and USAID lacks timeframes and goals for capacity building and operations and
 maintenance. Several key USAID-funded projects have faced delays and increased costs due, in part, to a general lack
 of quality assurance oversight and security concerns. USAID is in the process of addressing some of these issues.
 USAID has established a goal of providing reliable and affordable electricity by increasing operational capacity to 1,000
 MW by 2012, but has not set timeframes and goals in other areas, including capacity building and operations and
 maintenance. Furthermore, metrics have been tracked at the contract level through performance management plans,
 but relying on these plans has not been an effective method for USAID to assess progress in a strategic manner.

 While the Inter-Ministerial Commission on Energy (ICE) coordinates donor activities for the large North and South East
 Power Systems, information sharing on rural energy projects needs improvement. While U.S. and donor officials that
 we spoke with concurred that ICE is an effective coordination mechanism; rural electrification has not reached the
 same level of maturity. For example, coordination mechanisms do not exist between USAID and U.S. Forces-
 Afghanistan at the project level. In addition, the U.S. and international donors have not agreed on technical standards
 for rural energy projects, which increases the risk that communities will not be able to connect with one another in the
 future.
 What SIGAR Recommends
 To improve the effectiveness of USAID-funded projects and planning for future energy projects, we recommend that
 the Director of USAID Mission to Afghanistan take the following four actions: (1) work with the Afghan government
 and international donors to revise the Afghanistan Energy Master Plan and prioritize project needs, (2) establish
 milestone targets for capacity building and operations and maintenance support for USAID’s energy sector program,
 (3) ensure that applicable output and outcome metrics are applied consistently among USAID energy projects, and (4)
 work with U.S. Forces - Afghanistan and international donors to establish common technical standards on rural energy
 projects. In a` joint response, the U.S. Embassy Kabul and USAID Mission in Afghanistan concurred with the
 recommendations and outlined steps taken and planned to implement them.




SIGAR Audit-10-4 Energy Sector                                                                                         Page ii
TABLE OF CONTENTS


Background                                                                                         1

Afghanistan Lacks A Current Energy Sector Master Plan                                              3

Improvements Made to Increase Energy Supply but Sustainability Is a Key Concern                    4

Most On-going USAID Energy Projects Have Not Met Scheduled Completion Dates and USAID Lacks
Program Metrics to Facilitate Assessments                                                          9

Coordination on Large Projects, but Limited Information Sharing on Rural Energy Projects          14

Conclusions                                                                                       16

Recommendations                                                                                   16

Comments                                                                                          16

Appendix I: Scope and Methodology                                                                 18

Appendix II: Comments from U.S. Embassy Kabul and USAID Mission in Afghanistan                    19


FIGURES AND TABLES

Figure 1:   Afghanistan Domestic Energy Production and Imports, January 2006 to September 2009     5
Figure 2:   Contributions and Commitments to NEPS, as of July 2009                                 6
Table 1:    Status of Fiscal Year 2009 USAID Energy Sector Infrastructure Projects                10
Table 2:    USAID Energy Program Targets and Results, fiscal years 2006 through 2008              13


ABBREVIATIONS

ANDS                     Afghanistan National Development Strategy
CERP                     Commander’s Emergency Response Program
LBG/B&V                  Louis Verger/Black & Veatch
MW                       Megawatts
NEPS                     North East Power System
SEPS                     South East Power System
SIGAR                    Special Inspector General for Afghanistan Reconstruction
USAID                    Agency for International Development



SIGAR Audit-10-4 Energy Sector                                                               Page iii
        Afghanistan Energy Supply Has Increased but An Updated Master Plan Is
                Needed and Delays and Sustainability Concerns Remain

This report assesses (1) the strategy for prioritizing projects and establishing goals and timeframes for
the development of Afghanistan’s energy sector; (2) the status of Afghanistan’s energy sector and U.S.
and donor efforts, (3) the status of USAID energy sector projects; and (4) the coordination between the
United States, international donors, and Afghanistan on energy projects. To accomplish these objectives
we reviewed key documents and reports including energy sector status reports, U.S. Agency for
International Development (USAID) assessments, and the Afghanistan Inter-Ministerial Commission on
Energy meeting minutes. We interviewed USAID and United States Forces–Afghanistan (USFOR-A)
officials who manage energy projects and officials from the Afghan Ministry of Energy and Water and
Inter-Ministerial Commission on Energy. We also interviewed international stakeholders involved in the
development of Afghanistan’s energy sector, including officials from the World Bank, Asian
Development Bank, and the United Nations Assistance Mission in Afghanistan. Finally, we interviewed
officials from the Louis Berger/Black & Veatch Joint Venture (LBG/B&V), a major contractor for USAID’s
energy projects. We also attended U.S. and international meetings designed to coordinate donor efforts
in the energy sector.

For the purposes of this report, the energy sector refers to the construction, rehabilitation, and
development of electrical infrastructure systems including generation, transmission, and distribution.
This report provides a review of the overall energy sector program in Afghanistan, focusing primarily on
the U.S. assistance program. The detailed results of specific energy projects will be addressed in
separate SIGAR reports. 1 We conducted our work in Kabul, Afghanistan, and Washington, D.C., from
April to December 2009 in accordance with generally accepted government auditing standards. A more
detailed discussion of our scope and methodology is included in Appendix I.


BACKGROUND

Years of war and neglect have left Afghanistan’s electrical sector in poor condition. Prior to 1978,
Afghanistan was able to access approximately 396 megawatts (MW) of power compared to
approximately 243 MW of power in 2002. In comparison, the 2007 summer operating capacity of
Washington, D.C. alone was 806 MW of power. In 2002, over-one third of electrical power was
imported from other countries, and many areas of Afghanistan remained without access to electricity.
As of September 2009, the Afghan Energy Information Center estimates that approximately 15 percent
of households in urban centers had access to electric power, whereas only 6 percent of rural households




1
    A report on SIGAR’s audits of USAID’s assistance to the Kabul Power Plant will be available in January 2010.


SIGAR Audit-10-4 Energy Sector                                                                                 Page 1
had access to electricity. 2 Afghans rely primarily on electricity produced by costly diesel generators as
opposed to lower cost options such as imported power or natural gas, hydro, solar, and wind energy
which are or could be generated within Afghanistan.

In February 2006, the Afghan government and the international community produced an interim
Afghanistan National Development Strategy (ANDS) and Afghanistan Compact that include provisions for
developing Afghanistan’s energy sector. 3 The ANDS established an overall goal of an “energy sector that
provides reliable, affordable energy increasingly based on market-based private sector investment and
public sector oversight.” ANDS also incorporated the Afghanistan Compact’s four benchmarks for
Afghanistan’s energy development. 4 These target goals include (1) reaching at least 65 percent of
households in major urban areas, (2) reaching 90 percent of non-residential establishments in major
urban areas, (3) reaching 25 percent of households in rural areas, and (4) covering at least 75 percent of
total operating costs through user fees by the end of 2010.

The Ministry of Energy and Water, the Ministry of Mines, the Ministry of Rural Rehabilitation and
Development, and the Ministry of Commerce and Industries are involved in the country’s energy sector.
The Ministry of Energy and Water is in charge of electricity generation, imports, transmission, and
distribution; the Ministry of Mines is in charge of oil, gas, and coal; the Ministry of Rural Rehabilitation
and Development sponsors numerous energy projects in rural areas; and the Ministry of Commerce and
Industries is in charge of liquid fuels. 5 In addition, the Ministries of Urban Development, Finance, and
Economy all have roles in ensuring successful energy development in Afghanistan.

The United States has provided over $732 million for Afghanistan’s energy sector. The United States has
provided the majority of its assistance through USAID. Since 2002, USAID has obligated approximately
$700 million for projects and programs in the Afghan energy sector. USAID-funded energy projects are
primarily managed through its Afghanistan Infrastructure and Rehabilitation Program, which is
contracted to the Louis Berger Group/Black & Veatch Joint Venture (LBG B&V). USAID has also awarded
several additional contracts with other contractors for rehabilitation of power plants, building energy
sector capacity, information management, and promoting clean energy. In addition, USAID funds small-


2
 The Afghan Energy Information System is a USAID-funded project to manage the collection, analysis, and
distribution of information regarding Afghanistan’s energy situation and infrastructure development.
3
  An ANDS Energy Sector Strategy was prepared by the Afghan government in February 2008, and a finalized ANDS,
incorporating benchmarks from the Afghanistan Compact, was signed in April 2008.
4
 The ANDS outlines the Government of Afghanistan's strategies for security, governance, economic growth, and
poverty reduction. The Afghanistan Compact sets forth a framework for international cooperation. Together, the
two documents serve as the primary mechanism for coordinating future Afghan and international reconstruction.
Energy was addressed under the Social and Economic Development pillar, as one of six topics in the Infrastructure
and Natural Resources sector.
5
  The Ministry of Rural Rehabilitation and Development rural development projects are primarily implemented
through the National Solidarity Programme, a community-based development program to help communities
identify, plan, manage, and monitor their own projects. As of January 19, 2009, 5,704 energy-related projects
were performed through the National Solidarity Programme, according to the World Bank. The United States
contributes to this program through its donations to the World Bank-managed Afghanistan Reconstruction Trust
Fund.
SIGAR Audit-10-4 Energy Sector                                                                             Page 2
scale energy projects through its Alternative Development and Local Governance Community
Development programs. USFOR-A has also provided some assistance to the energy sector, primarily
through the Commander’s Emergency Response Program (CERP). From October 2004 to June 2009, the
Department of Defense obligated approximately $32 million in CERP funds for energy projects in
Afghanistan. Examples of CERP energy projects include solar lamps, micro-hydro projects, and local
distribution networks.


AFGHANISTAN LACKS A CURRENT ENERGY SECTOR MASTER PLAN

Ambitious goals currently guide Afghanistan’s energy sector priorities and are unlikely to be met in the
established timeframes. Afghanistan lacks a current Energy Sector Master Plan that establishes
priorities, timeframes, and costs associated with energy sector goals. According to U.S. and donor
officials, Afghanistan is in need of an updated Energy Sector Master Plan to prioritize projects and
establish reasonable goals and timeframes. According to USAID officials, strategic priorities of the
Afghan government are difficult to identify and often vary between different Afghan officials that USAID
and other international donor work with to identify needs and priorities. While goals in the ANDS and
Afghanistan Compact were established by the Afghan government in coordination with international
donors, USAID officials stated that these goals were poorly defined and overly ambitious. One donor
stated that the ANDS goals are exaggerated, lack implementation mechanisms, and are based on
inaccurate information. In addition, the Afghan government’s February 2008 Energy Strategy states that
reliable energy data for Afghanistan is scarce. The 2008 strategy further states that until data collection
and analysis capabilities are improved, the cost of meeting the ANDS benchmarks cannot be known with
certainty.

According to officials from the Asian Development Bank and World Bank, many current activities in the
energy sector are ad hoc and not managed in a strategic manner. Further, while an energy sector
master plan was funded by the Asian Development Bank in 2004, much of that plan is out of date and
does not reflect the current environment. For example, according to the Ministry of Energy and Water’s
2007 Power Sector Strategy, the 2004 master plan assumed that Kabul would require 185-200 MW of
electricity. However, based on population increases between 2004 and 2007, this requirement
significantly underestimates Kabul’s current needs.

The World Bank, in its Summaries of Vulnerabilities to Corruption Assessments, reports that due to the
lack of information it was difficult to establish baselines and priorities for the energy sector. 6 In
addition, the World Bank reports that there is no systematic energy strategy and that project
development occurs on a discretionary basis, with individual requirements rather than institutional
approaches being used. According to one donor official, the Afghan government needs to prioritize
projects in a strategic manner to assist donors. The official also stated that some projects are occurring
in areas where the need is not as great as other areas. Another donor official we spoke with noted that
Afghan officials consistently add critical projects without ranking them in terms of priorities. While the
Inter-Ministerial Commission on Energy has a list of funding priorities, the list concentrates on Kabul and


6
 The Summaries of Vulnerabilities to Corruption in Afghanistan, prepared by the World Bank, summarize six
completed assessments for various key sectors, government agencies, and core government functions in
Afghanistan. The assessment of the energy sector was performed by the Asian Development Bank. Fighting
Corruption in Afghanistan: Summaries of Vulnerabilities to Corruption Assessments, The World Bank, May 2009.
SIGAR Audit-10-4 Energy Sector                                                                          Page 3
North East Power System, and is based on Inter-Ministerial Commission on Energy meetings and current
developments.

To address concerns with the lack of a strategic approach for project priorities, USAID has stated that it
is currently working on identifying constraints and opportunities for energy infrastructure projects at the
national and provincial levels within Regional Command – East and Regional Command – South. USAID
plans to conduct this work between November 2009 and September 2010 so that it can establish a
priority list of projects that will help guide USAID’s investments and provide the information to potential
donors.


IMPROVEMENTS MADE TO INCREASE ENERGY SUPPLY BUT SUSTAINABILITY IS A KEY
CONCERN

Largely through U.S. and donor assistance for power import negotiations, power generation, and
transmission lines and distribution, the energy supply in Afghanistan increased by an estimated 139
percent between 2001 and 2009. However, major sustainability concerns for the maintenance and
growth of the energy supply exist. Key issues that impact the Afghan government’s capabilities to
sustain energy sector improvements include: the ability to collect sufficient revenue from end users and
capability to conduct and maintain on-going operations.


Afghanistan Energy Supply Increased

Afghanistan’s installed electrical capacity has increased in the last eight years by an estimated 139
percent, primarily as a result of the assistance provided by the United States and international donors.
Specifically, USAID’s activities to build electrical production capabilities have directly contributed 199
MW of energy capacity, nearly 20 percent of Afghanistan’s total installed energy capacity. In 2001,
Afghanistan’s installed energy capacity was approximately 430 megawatts (MW) 7 compared to 1,028.5
MW as of September 2009. 8 Figure 1 shows Afghanistan’s total energy production from 2006 through
July 2009, including domestic production (thermal and hydro) and imports, as reported by the Afghan
Energy Information Center. According to data provided by the Afghan Energy Information Center,
Afghanistan’s domestic energy production has continued to increase since 2006. In three years,
Afghanistan has increased its domestic energy production by nearly 100,000 (MWH) of electrical power.
In August 2009, Afghanistan produced approximately 180,415 of electricity compared to 88,804 MWH of
electrical power in August of 2006. 9




7
    A megawatt (MW) is a unit of electric capacity.
8
 This amount increased significantly with the December 2009 commissioning of the USAID-built Kabul 105 MW
Power Plant, also known as the Tarakhil Power Plant.
9
 A megawatt-hour (MWH) is a unit of electric energy produced by one megawatt operating or producing
electricity for one hour.
SIGAR Audit-10-4 Energy Sector                                                                        Page 4
Figure 1: Afghanistan Domestic Energy Production and Imports, January 2006 to September
2009 (MWH)




Source: SIGAR analysis of Afghan Energy Information Center data.


The largest energy project funded by the United States and international donors is the ongoing
construction of the North East Power System (NEPS). The NEPS program was established to provide
lower-cost power to cities and towns in the northeast portion of Afghanistan, including Kabul. A large
part of NEPS development involves the construction of power lines and distribution systems needed to
import power from neighboring Tajikistan, Turkmenistan, and Uzbekistan at significantly lower cost than
diesel powered sources of electricity. 10 The Afghanistan government and U.S. and international donors
have been working to establish long-term power purchase agreements with Uzbekistan, Tajikistan, and
Turkmenistan. Power-sharing agreements with these neighboring countries could eventually yield a
total of 900 MW of daily imported power, according to the May 2009 USAID Energy Strategy. USAID has
obligated $3.75 million to provide the Ministry of Energy and Water with technical assistance in
obtaining imported power. Figure 2 shows contributions and commitments by donors to the NEPS. The
United States has funded an estimated $423 million for the NEPS through USAID. Of this amount, 62
percent ($260 million) has been provided for power generation and 12 percent ($51 million) for
transmission lines and distribution. The remaining 26 percent ($112 million) was provided for other
purposes including technical assistance for the power purchase agreements, a national load dispatch
and control center, and a reactive power compensation system.




 For example, total generation cost for diesel generators range from $0.20 to $0.46/kWh based on 2009 prices,
10

whereas power imports from Uzbekistan cost $0.07/kWh.
SIGAR Audit-10-4 Energy Sector                                                                          Page 5
Figure 2: Contributions and Commitments to the North East Power System, as of July 2009




Source: Inter-Ministerial Commission on Energy data.
Note:
a
  Other includes the Islamic Development Bank and the KfW German Development Bank.

The Afghanistan’s 2005 Power Sector Master Plan identified the import of power as a short and medium
term replacement to costly diesel generators. According to the May 2009 USAID Energy Strategy,
power sharing agreements with Aghanistan’s neighboring countries and supporting infrastructure
projects could eventually yield a total of 900 MW of power. Agreements are in place to import 370 MW
of the potential 900 MW of power available. USAID has played a key role in assisting the Afghanistan
government in negotiating agreements with Uzbekistan and Tajikistan for about 370 MW of imported
power through NEPS. Of this amount, 70 MW of Uzbekistan power is currently flowing through NEPS to
Mazari-e-Sharif (30MW) and Kabul (40MW). However, Afghanistan lacks the infrastructure to utilize the
potential 300 MW of power from Tajikistan. 11 The Asian Development Bank and other donors have
committed to begin building the necessary infrastructure to import power from Tajikistan. In addition,
the next phase of the agreement between the Afghanistan and Uzbekistan governments, which
according to USAID was under negotiation in December 2009, may result in the import of up to an
additional 180 MW of power from Uzbekistan in the near future.

USAID has also funded additional projects for NEPS. For example, USAID is funding construction at the
Kabul 105 MW power plant, reactive power compensation system, and the national load control



11
  In 2008, the Afghanistan Government signed a 20-year power purchase agreement with Tajikistan for 300 MW
of power for 7 months a year.


SIGAR Audit-10-4 Energy Sector                                                                       Page 6
center. 12 In addition to assisting with power import negotiations, USAID has projects underway for the
installation, rehabilitation, and operations and maintenance of several power plants throughout
Afghanistan. One of these plants is the Kabul 105 MW Power Plant, which was commissioned in
December 2009 with its full capacity of 105 MW.

According to USAID, other significant energy projects funded include (1) the South East Power System
(SEPS) including major renovations to the Kajakai Dam which, once completed, will provide power to an
estimated 800,000 people in Helmand and Kandahar provinces; (2) the Afghanistan Clean Energy
Program, awarded September 2009, designed to provide clean energy solutions for approximately 300
communities in South and East Afghanistan; (3) the Afghanistan Energy Capacity Building program,
which trained nearly 2,000 Afghan government staff in technical energy fields during FY 2009; (4) the
rehabilitation of Darunta Hydropower Plant, the main power source for Jalalabad; and, (5) natural gas
field exploratory and investor work in the Sheberghan region of Afghanistan.

Afghanistan Government Lacks the Capability to Collect Revenues to Fund Fuel Costs and
Operations and Maintenance Expenses

While the United States and other donors have funded or committed approximately $1.6 billion to the
NEPS system, the Afghan government is unable to fully fund operations and maintenance of the donor-
provided facilities. The Afghanistan government lacks the capability to collect the revenue needed to
fund current and expected fuel costs and operating and maintenance expenses. This has resulted in the
need for the United States and other donors to spend millions on such expenses to ensure the
operations and maintenance of its projects. For example, according to the Afghan Energy Sector
Strategy, the energy sector lost $128.5 million in revenue in 2005 due to poor commercial operations.
In another example, USAID estimates that the Kabul Electricity Directorate alone lost approximately 60
percent or $125 million in revenues in 2008 and without changes this loss could rise to $275 million
annually by 2015. 13

Afghanistan’s operational capacity (621.4 MW) is at 60 percent of its installed capacity ( 1028.5 MW)
and the United States is continuing to fund the operations and maintenance of completed USAID
projects that have contributed to the installed capacity. 14 In addition, of an estimated $139.2 million
identified for operations and maintenance of NEPS, only $27.2 million (19.5 percent) was funded by the
Asian Development Bank, as of July 2009. The remaining $112.0 million is listed as a critical need for the
operations of NEPS and is for key items such as equipment and spare parts. Numerous power
generation units are operating at below installed capacity due to issues in fuel, water, and rehabilitation.


12
  A reactive power compensation system is necessary to control the NEPS voltage level, minimize system losses,
and maximize power transmitted through NEPS. A national load control center will allow the Afghans to monitor
data and control the various elements within NEPS substations and power stations to ensure safe and efficient
operation of the power supply network.
13
  USAID stated that its estimates are understated because they do not take into account depreciation, under-
spending on staff salaries and maintenance, and fuel contributions by the United States, all of which would further
increase losses.
14
  Installed capacity is the maximum megawatts that can be produced. Operational capacity is the current amount
of megawatts able to be produced.
SIGAR Audit-10-4 Energy Sector                                                                              Page 7
For example, plants in Qalat, Lashkar-Gah, and Kandahar have an installed capacity of 32.0 MW
combined. However, due to low fuel levels, the operating capacity of these plants as of July 2009 was
20.0 MW, or 62.5 percent of installed capacity. Between April 2007 and May 2009, USAID spent an
additional $15.2 million for operations and maintenance of these and other donor-built power plants
and plans to spend an additional $15.3 million through April 2011. This shortfall occurred because the
Afghanistan government only budgeted $40.0 million although Afghanistan’s fuel needs through 2010
are estimated at $57 million. As a result, USAID provided $27 million, originally intended to fund
projects through the Afghanistan Reconstruction Trust Fund, to pay for fuel needed for power
generation. Of this amount, USAID has spent $15.6 million to provide fuel for Kabul power generation.

Corruption in the energy sector affects Afghanistan’s ability to collect revenue. According to USAID, a
major point of corruption in Afghanistan is the electrical distribution systems/processes. Corruption
examples include extra fees for connections, bribes to meter readers, bypassing of meters, and
incomplete revenue returns to Central Ministry of Energy and Water. The Asian Development Bank, in
the World Bank’s Summaries of Vulnerabilities to Corruption Assessments for the energy sector, cited
numerous weaknesses in Afghanistan’s management of the energy sector which leave it susceptible to
corruption. The Bank cited examples of patronage for ministry jobs, consumer expectations of bribes to
pay for utility services, and investor expectations of demands and bribes. For example, according to
Bank reporting, as many as 25 signatures are required in order to secure an electricity connection in
Kabul through the official procedures. However, according to the Bank, no signatures are required for
connections obtained through personal connections or bribes. In addition, according to an Inter-
Ministerial Commission on Energy report, a customer is required to request permission from the
Minister or a Deputy Minister at the Ministry of Energy and Water to receive permission to access the
distribution system. The cost to obtain permission to build a connection could well exceed the actual
cost to connect to the distribution system, according to the Inter-Ministerial Commission on Energy
report.

Both the United States and other international donors have sought to develop the Afghan government’s
ability to operate electric utilities on a commercial basis. According to USAID, one of the key steps in
reducing commercial losses, minimizing corruption, and increasing revenue collection is the transfer of
assets from the state-owned Da Afghanistan Breshna Moassessa to a commercialized entity, Da
Afghanistan Breshna Sherkat (DABS). In September 2009, with the support of USAID and other donors,
the assets were transferred to the commercialized entity. In another example, according to USAID, they
are providing support to the commercialized DABS through a 2.5-year, $52 million contract designed to
improve management, staffing structure, metering, and revenue collection at the entity. Similar work is
underway at the Kandahar division of DABS to rehabilitate the urban grid.

Afghanistan Government Lacks an Experienced Workforce for Maintenance and Development
of Energy Sector

The Afghan government also lacks an experienced workforce. According to U.S. Forces Afghanistan
officials, the management and operational capacity of the Ministry of Energy and Water and Da
Afghanistan Breshna Sherkat, the national electric utility, is extremely weak due to an aging labor force
and a shortage of educated young people to enter the skilled labor, technical, and professional ranks.
The Summaries of Vulnerabilities to Corruption Assessments also report that due to decades without
skills upgrading or exposure to modern technical approaches in energy development, human capacity at
both the technical and managerial levels is weak. Furthermore, the summaries report that sound sector

SIGAR Audit-10-4 Energy Sector                                                                    Page 8
development is impeded by a lack of human capacity, incentive based pay, and competitive salaries. For
example, officials at the USAID-funded Afghanistan Energy Information Center are planning to transfer
functions from the center to the Afghan Ministry of Energy and Water. However, officials noted that
one of the challenges is the ability to ensure that staff remain with the ministry once the office is turned
over to the Afghan government due to the differences in pay between the Afghan government and
contractors. USAID has paid for capacity building in some of Afghanistan’s diesel power plants.
However, in March 2009, a contractor reported that it had lost trained diesel power plant employees
due to better paying jobs elsewhere.

USAID has taken several initiatives to improve the capabilities of the Afghan workforce in the energy
sector. Specifically, USAID has contracted engineering specialists to provide training to Ministry of
Energy and Water and Da Afghanistan Breshna Sherkat, and to build a training institute for energy
sector workers. 15 In addition, all individual USAID contracts and task orders include a component of
capacity development, according to USAID officials.


MOST ON-GOING USAID ENERGY PROJECTS HAVE NOT MET SCHEDULED COMPLETION DATES
AND USAID LACKS PROGRAM METRICS TO FACILITATE ASSESSMENTS

Several key USAID-funded energy projects have faced delays and increased costs due in large part, to a
general lack of quality assurance oversight and security concerns. In fiscal year 2009, USAID had 6 active
infrastructure projects underway for the energy sector valued at an estimated $422.6 million. As shown
in table 1, all but one of these ongoing USAID projects have not met scheduled completion dates. In
addition, donors have also cited issues regarding security and a lack of qualified contractors to perform
work. According to an Inter-Ministerial Commission on Energy report, most NEPS energy projects in
Afghanistan have faced delays ranging from 3 to 6 months. Reasons for delays include poor contractor
performance, poor contract oversight, and security concerns.




15
     This is a $17.2 million contract for three years with Advanced Engineering Associates, International.

SIGAR Audit-10-4 Energy Sector                                                                               Page 9
Table 1: Status of Fiscal Year 2009 USAID Energy Sector Infrastructure Projects
 Project                Total            Start Date       Original       Estimated           Note
                        Estimated                         Completion     Completion
                        Cost                              Date           Date
                        (in millions)
                                                                                                              a
 Kajakai Hydro          $47.9            1/1/2007         6/30/2008      10/31/2009          Contract ended
 Power Plant
 Rehabilitation
                                                      b                                                           c
 Kabul 105 MW           $300.8          7/31/2007         8/31/2009      5/31/2010           Behind Schedule
 Power Plant

 Sheberghan Gas         $11.9           2/7/2008          4/30/2009      6/9/2009            Terminated for
 Fields Development                                                                          convenience on
                                                                                             6/1/2009
 Reactive Power         $24.1           6/10/2008         6/9/2009       11/30/2010          Behind Schedule
 Compensation

 National Load          $28.1           6/10/2008         2/28/2010      5/31/2010           Behind Schedule
 Control Center

 Darunta Hydro-         $9.8            8/1/2008          1/31/2010      1/31/2010           No change in schedule
 Electric Power Plant
 Rehabilitation

Source: SIGAR analysis of USAID contracts and contractor schedules.
Notes:
a
  At the completion of this contract, the original project requirements were not met. While the project has
rehabilitated two turbines generating 33 MW, the installation of an additional power generation unit will not be
completed by the contractor due to security issues. Furthermore, under USAID’s Rehabilitation of Economic
Facilities and Services program, USAID spent an additional $41.8 million for this power plant project.
b
  A definitive contract issued on July 31, 2007 for task order 9 superseded the letter contract initially issued on
May 24, 2007. The letter contract’s total value was $29.3 million which was incorporated into the definitive
contract.
c
  While 105 MW of power was commissioned and connected to the grid on 12/8/2009; additional work remains in
order to complete the project on 5/31/2010.

The Sheberghan gas fields development project represents a particularly interesting case. At the point
of the termination for convenience, the United States had spent $7.1 million on the project. According
to USAID, the termination for convenience was due to subcontractor nonperformance. However,
LBG/B&V officials stated that the termination was at the convenience of the U.S. Government and that
there were project delays caused by Afghan customs issues, security issues, and the need to negotiate
assumption of certain project risks by the Afghan government. This cancellation has significant
implications for Afghanistan’s future energy independence since natural gas represents an indigenous
energy resource which experts estimate could, in theory, meet the country’s demand for low cost power
for decades to come if properly developed. USAID officials stated that they felt the funds would be
better spent by setting up a public-private partnership to build a power plant.



SIGAR Audit-10-4 Energy Sector                                                                             Page 10
Most Energy Projects Lack Independent Quality Assurance Programs

USAID lacks independent quality assurance on most energy projects. Since 2002, USAID’s annual
Federal Managers’ Financial Integrity Act certification has noted that security restrictions have limited
USAID’s ability to visit projects sites and monitor implementation in an adequate manner. In its fiscal
year 2008 certification, USAID noted that the limited monitoring leaves USAID programs susceptible to
fraud, waste, and mismanagement of resources. For projects under the Afghanistan Infrastructure and
Rehabilitation Program contract, USAID has relied on the contractor to provide reports and oversight.
However, that reporting has not always been timely or sufficient. For example, in January 2009, USAID
notified LBG/B&V that it was not receiving critical information in a timely manner. In another example,
a USAID Inspector General report found that due to a lack of on-site quality assurance at the Kabul 105
MW Power Plant, USAID was not fully aware of problems with the project. 16 We found that while USAID
reportedly conducted major site visits approximately once a month, it did not have independent on-site
quality assurance for most projects. Even though USAID has hired a contractor to perform independent
oversight services for some of their projects, only one energy project, the Darunta Power Plant, had
received independent oversight by the contractor as of June 2009. According to USAID, in July 2009,
quality assurance personnel began working on the Kabul 105 MW Power Plant. In addition, USAID’s
work at the Kajakai Hydropower Plant received quality assurance engineering on an ongoing basis.

Security Concerns Impact Progress and Costs

Security issues have prevented some projects from being completed on schedule. According to
LBG/B&V, the deteriorating security, particularly in the south and east of Afghanistan has increased cost
and delayed schedules. For example, in LBG/B&V’s first task order for operations and maintenance of
diesel plant operations, mostly in southern Afghanistan, security costs were about 9 percent of the total
task order award. In the follow-on task order, security costs accounted for almost 30 percent of the task
order’s value. According to LBG/B&V, as of August 2009, there have been a total of 207 casualties under
the Afghanistan Infrastructure and Rehabilitation Program. 17

The Kajakai Hydropower Plant demonstrates the impact of an insecure environment on the costs and
schedule of a project. According to a USAID Inspector General report, security issues at the Kajakai
Hydropower Plant have contributed to delays and increased costs for air and military ground
transportation and other things. Due to poor security conditions, the road to Kajakai was unsafe to
move equipment and resulted in the need to airlift equipment to the site. The USAID Inspector General
report estimates that the use of airlift instead of ground transportation increased USAID’s cost by nearly
$7 million. To move large parts that could not be done using airlift, USAID required the assistance of
International Security Assistance Forces convoy capabilities, at a reported cost of approximately $1
million. In addition, due to kidnapping threats, the Chinese subcontractor that was rehabilitating one
power generation unit and installing another was directed in November 2008 by the Chinese
government to withdraw its staff from the jobsite. Furthermore, the potential power generated by



16
  USAID Inspector General, Audit of USAID/Afghanistan’s Power Sector Activities Under its Afghanistan
Infrastructure Rehabilitation Program, Report No. 5-306-10-002-P (Manila, Philippines: Nov. 10, 2009).
17
   Casualties include individuals wounded, killed, or kidnapped. LBG reported to us that it has experienced 195
killed, 286 wounded, and 28 kidnapped over the last 9 years in Afghanistan.
SIGAR Audit-10-4 Energy Sector                                                                            Page 11
Kajakai, once a third turbine is installed, cannot be fully utilized until an additional transmission line is
built. Due to security threats along the road to the dam, that transmission line has not been built.

USAID Is Taking Steps to Address Causes for Project Delays

In March 2009, following schedule delays and dissatisfaction with LBG/B&V’s performance, USAID
conducted its own review of its Afghanistan Infrastructure Rehabilitation Program contract and
recommended changes in USAID’s contract management such as, increasing contractor competition and
improved oversight. Based on discussions with USAID program and contracting officials, the
implementation of many of these recommendations is in process. For example, according to USAID
officials, the agency plans to restructure its contracts to increase competition. For future contracts,
rather than one indefinite quantity contract encompassing multiple sectors, USAID plans to issue
separate sector contracts. This is designed to allow for multiple contractors to bid on each USAID
project. According to the review, although USAID had established independent oversight on many of
Afghanistan Infrastructure and Rehabilitation Program’s task orders, the energy projects lacked
independent oversight. USAID officials indicate that they are addressing this issue by requesting that
their contractor, International Relief and Development, provide oversight at energy projects. According
to USAID officials, oversight reporting by the contractor was expected to be in place by November 2009.


Additional Metrics Needed to Assess Project Effectiveness

While USAID has established a goal of providing reliable and affordable electricity by increasing
operational capacity to 1,000 MW by 2012, it has not set timeframes and goals for capacity building and
operations and maintenance. Since 2007, USAID has tracked three output metrics for energy programs
in Afghanistan: (1) capacity constructed or rehabilitated; (2) number of people with increased access to
modern energy services; and (3) number of people receiving U.S. government supported training in
energy. 18 Table 2 below provides USAID’s three targets and results from 2006 through 2008. While
USAID tracks and reports these metrics, additional output and outcome metrics are specifically related
to individual contracts and metrics within performance management plans.




18
  In fiscal year 2006, only capacity constructed or rehabilitated was tracked. While additional metrics were
established in 2007, data was not available until fiscal year 2008.
SIGAR Audit-10-4 Energy Sector                                                                             Page 12
Table 2: USAID Energy Program Targets and Results, fiscal years 2006 through 2008
 Indicator               Baseline     2006      2007     2007      2008      2008        2009         2009
                         Year         Result    Target   Result    Target    Result      Target       Result
                                                                               a
  Capacity constructed   2006         58.0      25.0     19.3      14        51          100          105.0
  or rehabilitated (MW)
  as a result of U.S.
  Government
  assistance
                                                                                        a
  Number of people         2007         --       n/a       n/a       100,800 415,300         1,870,000 2,060,000
  with increased access
  to modern energy
  services as a result of
  U.S. Government
  assistance
  Number of people         2007         --       n/a       n/a       10         48           941         2,209
  receiving U.S.
  Government
  supported training in
  technical energy fields
Source: USAID data.
Note:
a
  According to USAID, these numbers for 2008 results represent capacity and access to services that were
maintained by USAID during fiscal year 2008 rather than expanded capacity and access to services.

Relying on the performance management plans and contract specific metrics has not been an effective
means for USAID to assess overall progress in a strategic manner because they are not consistently
tracked or applied to all relevant projects. For example, the performance monitoring plan for the
Afghanistan Infrastructure and Rehabilitation Program includes 5 output indicators and 5 outcome
indicators for the energy sector program. However, these indicators were not consistently tracked in
the first two years of the program. Specifically, the Afghanistan Infrastructure and Rehabilitation
Program contract was awarded in August 2006, with the first energy task order awarded in January
2007, but the performance monitoring plan was not agreed upon until March 2009 and the first report
produced in May 2009. According to a USAID review, the baseline and performance data were not
consistently tracked until March 2009. Other relevant metrics that were not tracked across all USAID
energy projects includes: full-time Afghan jobs created, capacity maintained, household income, average
hours of daily electricity service, and weighted average cost of electric energy supplied to the grid. The
tracking of these metrics would enable USAID to better assess progress of their overall energy assistance
program. In our review of other USAID projects, we found that contractor reporting of all relevant
output or outcome indicators was not required. For example, the only required contractor tracking and
reporting for the Darunta Power Plant was for MW rehabilitated at the end of the project. Contractor
reporting of other relevant metrics, such as the number of people trained and Afghan jobs created was
not required in the contract. In another example, USAID’s capacity building program for the energy
sector, does not track the number of Afghan jobs created.




SIGAR Audit-10-4 Energy Sector                                                                        Page 13
COORDINATION ON LARGE PROJECTS, BUT LIMITED INFORMATION SHARING ON RURAL
ENERGY PROJECTS

While the Inter-Ministerial Commission on Energy coordinates donor activities for the North East Power
System (NEPS) and South East Power System (SEPS) projects, information sharing on rural energy
projects is weak. For example, U.S. Forces Afghanistan and USAID do not share information on their
energy projects at the project level. Specifically, USAID does not have complete knowledge of energy
projects that have been conducted by U.S. Forces Afghanistan under the CERP program. In addition,
donors have noted the need to coordinate to establish common technical standards for rural energy
projects. Such standards would allow for donor projects to standardize spare parts and operations and
maintenance, and allow communities to eventually connect with one another through compatible
systems.

Efforts on Afghanistan’s largest systems, the NEPS and SEPS are well coordinated. The Inter-Ministerial
Commission on Energy was created by presidential decree in October 2006 to provide oversight of the
energy sector policy and infrastructure investments, including coordination of international support.
USAID and international donors provide the Inter-Ministerial Commission on Energy with assistance to
track progress, provide reports, and identify problems and funding gaps. Afghan, Asian Development
Bank, and United Nations officials all stated that coordination through the Inter-Ministerial Commission
on Energy has been effective. A U.S. Embassy official stated that compared to other sectors, the Inter-
Ministerial Commission on Energy has worked well and could be a model for coordination. In June 2009,
SIGAR attended the monthly Inter-Ministerial Commission on Energy meeting as an observer and found
that key stakeholders on the NEPS and SEPS and representatives from Afghan ministries were all
engaged. This meeting also provided attendees with information from key contractors on the status of
U.S. and international donor projects.

Coordination on rural energy projects has not reached the maturity of coordination efforts for the NEPS
and SEPS programs. Rural energy is a key component in expanding access to energy. USAID estimates
that 28 million people, mostly rural poor, have no access to reliable, modern forms of energy and
instead rely on wood and dung for fuel. In August 2008, the Inter-Ministerial Commission on Energy
established a rural electrification subcommittee in order to provide access to energy services for the
rural population and to explore Afghanistan’s potential in alternative energy sources. As part of the
Afghanistan Compact goals, the Afghan government committed to create a plan for the development
and use of renewable energies by the end of 2007. One of the subcommittee’s tasks is to develop this
plan but, according to USAID, as of September 2009, this has not been done.

USAID and other entities have recently taken some steps to improve coordination. The U.S. Embassy in
Kabul established an infrastructure working group to coordinate the efforts of State, USAID, and U.S.
Forces Afghanistan, which includes the coordination and planning of energy infrastructure projects.
According to USAID, the group plans to create an energy program strategy to better coordinate their
efforts. In addition, USAID’s Afghanistan Clean Energy Program received direct input from provincial
reconstruction teams on rural energy projects. Finally, USAID also participates in the CERP board for
project approval and both agencies are members of the Inter-Ministerial Commission on Energy.

Despite efforts by USAID and U.S. Forces Afghanistan to coordinate their activities in the energy sector,
additional information sharing is needed. SIGAR and Government Accountability Office reports have
noted the difficulties in information sharing between U.S. agencies. In July 2009, SIGAR found that U.S.

SIGAR Audit-10-4 Energy Sector                                                                    Page 14
agencies and commands lack a common integrated project management system that can share
information between various reconstruction actors in order to improve coordination. While key U.S.
agencies and commands have individual management information systems, there is no integrated
system which would provide the necessary level of information sharing for decision-makers. 19 In May
2009, the Government Accountability Office reported that while mechanisms exist to facilitate
coordination, U.S. Forces Afghanistan and USAID lack information that would provide greater visibility
on all U.S. government development projects in Afghanistan. 20 As of July 2009, information on CERP
projects was not directly provided to USAID. While USAID has representatives at the Provincial
Reconstruction Teams and CERP boards, this does not ensure that all project information is provided to
decision makers and implementers at USAID. These reports made several recommendations for
improvement. In response to the Government Accountability Office and SIGAR reports, officials
indicated that the implementation of the recommendations is in progress.

Furthermore, U.S. agencies and international donors have not established common technical standards
for rural energy projects. U.S. and donor officials we interviewed cited the need for common technical
standards. According to the Asian Development Bank, common technical standards would allow rural
energy projects done by various donors and agencies to achieve standardization of spare parts,
operations and maintenance. According to an official from United Nations Assistance Mission
Afghanistan, a lack of common technical standards increases the risk that communities will face
compatibility issues and will be unable to connect with one another. A German Technical Cooperation
official, who also assists the Afghans on the Inter-Ministerial Commission on Energy rural electrification
subcommittee, commented that while technical standards are important, enforcement of these
standards is also necessary.




19
 A Better Management Information System Is Needed to Promote Information Sharing, Effective Planning, and
Coordination of Afghanistan Reconstruction Activities, SIGAR Audit-09-3, July 30, 2009.
20
 Military Operations: Actions Needed to Improve Oversight and Interagency Coordination for the Commander’s
Emergency Response Program, GAO-09-615, May 18, 2009.
SIGAR Audit-10-4 Energy Sector                                                                       Page 15
CONCLUSIONS

Afghanistan will need continued investments by the United States and donors in order to accomplish its
energy goals. Years of neglect cannot be overcome until the Afghanistan government has the capability
to recover costs, expand its capabilities, and conduct operations and maintenance of the energy sector.
Until that time, Afghanistan will continue to rely heavily on donor funds in order to ensure that
investments do not fall to waste. Nevertheless, there are steps that the United States can take to
improve the effectiveness of its assistance program and help Afghanistan reach realistic goals and
timeframes and establish common technical standards for rural energy projects.


RECOMMENDATIONS

To improve the effectiveness of USAID-funded projects and planning for future energy projects, we
recommend that the Director of the USAID Mission in Afghanistan take the following four actions:

    •   Work with the Afghan government and international donors to revise the Afghanistan Energy
        Master Plan to include realistic goals and timeframes based on prioritized project need, costs,
        and benefits;

    •   Establish milestone targets and metrics for capacity building and operations and maintenance
        support for USAID’s energy sector program in Afghanistan;

    •   Ensure that applicable output and outcome metrics are applied consistently amongst USAID
        projects, and

    •   Work with U.S. Forces – Afghanistan and international donors to establish common technical
        standards on rural energy projects.


COMMENTS

U.S. Embassy Kabul and USAID Mission in Afghanistan each provided joint written comments on a draft
of this report. Both US Embassy Kabul and USAID Mission in Afghanistan submitted separate written
comments, but the comments themselves are identical to each other. We have included both identical
sets here to demonstrate that both express joint concurrence with the report’s findings. The Embassy’s
Coordinating Director for Development and Economic Affairs and the USAID Mission Director noted that
the effectiveness of future USAID-funded energy projects and the planning for these projects could be
improved by implementing SIGAR’s four recommendations. In their comments they outlined actions
taken and planned in response to those recommendations. The U.S. Embassy and USAID Mission also
provided technical comments which SIGAR has incorporated into the report, as appropriate. SIGAR also
provided a draft of this report to United States Forces Afghanistan who did not have any comments.

Key actions planned by USAID include:

    •   Working with the Asian Development Bank and the Inter-Ministerial Commission on Energy to
        update Afghanistan’s Energy Master Plan by June 2011;

SIGAR Audit-10-4 Energy Sector                                                                   Page 16
   •   Work with the Ministry of Energy and Water to develop a strategy by April 2010 that will
       establish milestone targets and metrics for capacity building and operations and maintenance
       support;

   •   By April 2010, expand the number of indicators that are tracked across USAID’s energy portfolio,
       and

   •   By 2011, establish common technical standards for rural energy projects in coordination with
       the Afghan government, U.S. Forces – Afghanistan, and donors.

We believe that these actions, if fully implemented, are an important step in ensuring that U.S.
investments in Afghanistan’s energy sector are planned effectively, their impacts measured, and that
the Afghans are able to independently operate and maintain the sector.




SIGAR Audit-10-4 Energy Sector                                                                 Page 17
APPENDIX I: Scope and Methodology



To assess the strategy for prioritizing projects and establishing goals and timeframes, we reviewed the
Afghanistan Compact, the ANDS, Afghan government’s energy sector strategy, and the Ministry of
Energy and Water’s energy strategy.

To assess the status of Afghanistan’s energy sector and U.S. and donor efforts, we reviewed
documentation from the Afghanistan Energy Information Center, the Inter-Ministerial Commission on
Energy, and USAID. In addition, we met with officials from USAID, Department of State, and U.S. Forces
– Afghanistan, Afghan officials at the Ministry of Energy and Water and Da Afghanistan Breshna Sherkat,
World Bank, and the Asian Development Bank. In addition, we attended the Combined Joint Task Force
-101 Power and Water Conference in May 2009 as well as the June 2009 Inter-Ministerial Commission
on Energy meeting.

To assess progress of USAID energy sector projects, we reviewed USAID strategies, contracts for fiscal
year 2009 ongoing energy projects, performance management plans, contractor reports, and financial
information to identify metrics and goals. In addition, we spoke with program and contracting officials
at USAID and LBG/B&V officials.

To assess coordination between U.S. agencies, international donors, and the government of
Afghanistan; we met with USAID, U.S. Forces Afghanistan, State, and Afghan officials. In addition, we
met with key international donors on the North East Power System (NEPS) including the World Bank,
Asian Development Bank. For rural energy, we met with key international donors and officials including
German Technical Cooperation and the United Nations Assistance Mission in Afghanistan. We also
reviewed documentation from the Inter-Ministerial Commission on Energy and its Rural Electrification
Subcommittee.

We conducted this performance audit from April to December 2009 in Washington, D.C. and Kabul,
Afghanistan. We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions. The audit was conducted by the Office of the Special Inspector General for Afghanistan
Reconstruction under the authority of Public Law 110-181, Section 1229, and the Inspector General Act
of 1978, as amended.




SIGAR Audit-10-4 Energy Sector                                                                   Page 18
APPENDIX II: Comments From U.S. Embassy Kabul and U.S. Agency for International
Development Mission in Afghanistan




SIGAR Audit-10-4 Energy Sector                                                    Page 19
SIGAR Audit-10-4 Energy Sector   Page 20
SIGAR Audit-10-4 Energy Sector   Page 21
SIGAR Audit-10-4 Energy Sector   Page 22
SIGAR Audit-10-4 Energy Sector   Page 23
SIGAR Audit-10-4 Energy Sector   Page 24
SIGAR Audit-10-4 Energy Sector   Page 25
(This report was conducted under the audit project code SIGAR-004A).

SIGAR Audit-10-4 Energy Sector                                         Page 26
SIGAR’s Mission                  The mission of the Special Inspector General for Afghanistan
                                 Reconstruction is to enhance oversight of programs for the
                                 reconstruction of Afghanistan by conducting independent and
                                 objective audits, inspections, and investigations on the use of
                                 taxpayer dollars and related funds. SIGAR works to provide
                                 accurate and balanced information, evaluations, analysis, and
                                 recommendations to help the U.S. Congress, U.S. agencies, and
                                 other decision-makers to make informed oversight, policy, and
                                 funding decisions to:

                                 •   improve effectiveness of the overall reconstruction strategy
                                     and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing Afghanistan.

Obtaining Copies of SIGAR        To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies          SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                 reports, testimonies, and correspondence on its Web site.

To Report Fraud, Waste, and      To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan             allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs          reprisal contact SIGAR’s hotline:

                                     •   Web: www.sigar.mil/fraud
                                     •   Email: hotline@sigar.mil
                                     •   Phone Afghanistan: +93 (0) 700-10-7300
                                     •   Phone DSN Afghanistan 318-237-2575
                                     •   Phone International: +1-866-329-8893
                                     •   Phone DSN International: 312-664-0378
                                     •   U.S. fax: +1-703-604-0983

Public Affairs                   Public Affairs Officer
                                    • Phone: 703-602-8742
                                    • Email: PublicAffairs@sigar.mil
                                    • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202


SIGAR Audit-10-4 Energy Sector                                                            Page 27
